fT

Q@OCKLE

2311 Douglas Street . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850

No. 19-123

SHARONELL FULTON, ET AL.,
Petitioners,
Vv.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE FREEDOM
FROM RELIGION FOUNDATION, CENTER FOR INQUIRY, AND THE AMERICAN
HUMANIST ASSOCIATION AS AMICI CURIAE IN SUPPORT OF RESPONDENTS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 4395 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 20th day of August, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

Se Kone 0. tlaos? Ondeaol Ohh

My Comm. Exp. September 5, 2023,

 

 

Affiant 39700
